No. 20-503
IN THE

Supreme Court of the United States
TOFIG KURBANOV,
Petitioner,
v.
UMG RECORDINGS, INC., ET AL.,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,990
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 8, 2020.

/s/ Ian Heath Gershengorn
Ian Heath Gershengorn

